                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A07040021
                                                                                11          Page 1 of 1



         The complainant1 alleged a proposal2 contained two false statements. We reviewed the
         documents provided by the complainant, as well as information in eJacket. We also contacted
         the institution3, which had previously reviewed this allegation, and obtained information about
         their process and the results of their inquiry.

         We asked the subject4 to explain the statements in question. From my review of documents and
         the subject's response, we determined the statements did not constitute a substantive false
         statement. Accordingly, this case is closed.




:SF OIG Fonn 2 ( 1 1/02)
